NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL




          MATERIAL LOSS REVIEW
                    OF
       CHETCO FEDERAL CREDIT UNION


             Report #OIG-13-10
              October 1, 2013




               James W. Hagen
              Inspector General


               Released by:



              R. William Bruns
               Senior Auditor
                                        TABLE OF CONTENTS


Section                                                                                                 Page


ACRONYMS AND ABBREVIATIONS ...................................................................ii

EXECUTIVE SUMMARY.......................................................................................1

BACKGROUND ....................................................................................................4

OBJECTIVES, SCOPE AND METHODOLOGY ....................................................7

RESULTS IN DETAIL............................................................................................9

         A. Why Chetco Federal Credit Union Failed ...............................................9

         B. NCUA’s Supervision of Chetco Federal Credit Union ..........................16

OBSERVATIONS ................................................................................................20

APPENDIX

         A: NCUA Management Comments ...........................................................22




                                                                                                                   i
ACRONYMS AND ABBREVIATIONS


ALLL     Allowance for Loan and Lease Losses
Board    Board of Directors
Chetco   Chetco Federal Credit Union
Crowe    Crowe Horwath LLP
CLS      Commercial Loan Services
CUSO     Credit Union Service Organization
DTD      Division of Training and Development
DOR      Document of Resolution
EIC      Examiner-in-Charge
FCU      Federal Credit Union
FOM      Field of Membership
Guide    NCUA Examiner’s Guide
IRPS     Interpretive Ruling and Policy Statement
MBL      Member Business Loan
MLR      Material Loss Review
NCUA     National Credit Union Administration
NCUSIF   National Credit Union Share Insurance Fund
OIG      Office of Inspector General




                                                      ii
Material Loss Review – Chetco Federal Credit Union
OIG-13-10



EXECUTIVE SUMMARY

The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
contracted with Crowe Horwath LLP (Crowe) to conduct a Material Loss Review
(MLR) of Chetco Federal Credit Union (Chetco, or Credit Union), a federally
regulated and insured credit union. We reviewed Chetco to: (1) determine the
cause(s) related to the liquidation of Chetco Federal Credit Union and the resulting
$76.5 million 1 loss to the National Credit Union Share Insurance Fund (NCUSIF);
(2) assess NCUA’s supervision of the credit union; and (3) make appropriate
observations/recommendations to prevent future losses. To achieve these
objectives, we analyzed NCUA examination and supervision reports and related
correspondence; interviewed management and staff from NCUA’s Region V; and
reviewed NCUA guides, policies and procedures, NCUA Call Reports, and NCUA
Financial Performance Reports. 2

We determined Chetco failed for the following reasons:

    •    Inadequate Management and Board Oversight

         The Board of Directors and management exposed the credit union to
         excessive amounts of credit and liquidity risk due to its failure to set
         appropriate limits and maintain the appropriate risk management
         infrastructure to support the growth in the Member Business Loan (MBL)
         portfolio. Specifically:

             o Management allowed the credit union’s MBL portfolio to grow
               significantly between 2002 and 2008 with MBLs representing over 600
               percent of net worth in 2008. Regulations typically limit MBL portfolios
               to 175 percent of net worth. 3 However, Chetco received an
               exception 4 from this limit based on its designation as a low-income
               credit union and its history of making member business loans. Chetco

1
  The final cost to the NCUSIF will not be known until all assets are sold.
2
  Crowe provides additional details in the Objectives, Scope, and Methodology section of the report.
3
  Code of Federal Regulations (CFR) § 723.16 states the aggregate limit on a credit union’s net member
business loan balances is the lesser of 1.75 times the credit union’s net worth or 12.25 percent of the credit
union’s total assets. Loans that are exempt from the definition of member business loans are not counted for
the purpose of the aggregate loan limit.
4
  CFR § 723.17 states there are three circumstances where a credit union qualifies for an exception from the
aggregate limit. Loans that are excepted from the definition of member business loans are not counted for the
purpose of the exceptions. The three exceptions are: (a) Credit unions that have a low-income designation or
participate in the Community Development Financial Institutions program; (b) Credit unions that were chartered
for the purpose of making member business loans and can provide documentary evidence (such evidence
includes but is not limited to the original charter, original bylaws, original business plan, original field of
membership, board minutes and loan portfolio); and (c) Credit unions that have a history of primarily making
member business loans, meaning that either member business loans comprise at least 25 percent of the credit
union’s outstanding loans (as evidenced in any call report filed between January 1995 and September 1998 or
any equivalent documentation including financial statements) or member business loans comprise the largest
portion of the credit union’s loan portfolio (as evidenced in any call report filed between January 1995 and
September 1998 or any equivalent documentation including financial statements).
                                                                                                              1
Material Loss Review – Chetco Federal Credit Union
OIG-13-10



                 management substantially secured the MBL portfolio through real
                 estate, and experienced financial difficulty when the broader economy
                 and real estate markets declined, starting in 2007. Using loan
                 renewals and modifications, management initially masked loan
                 delinquency. In the face of regulatory restrictions regarding renewal
                 and modifications and a declining economy, the true risk profile of the
                 MBL portfolio emerged, which caused Chetco to recognize significant
                 losses.

             o Management failed to develop an adequate liquidity plan to address
               its rapid loan growth. In addition, with Chetco’s deteriorating financial
               condition, liquidity sources were ultimately restricted.

             o Management failed to operate the Commercial Lending Solutions
               (CLS) Credit Union Service Organization (CUSO) in a safe manner
               and intertwined its operations with the Credit Union with no clear
               delineation of employee responsibilities.

In addition, we determined examiners missed the opportunity to reduce the loss to
the NCUSIF as follows:

NCUA’s Region V raised concerns with Chetco’s MBL portfolio during the
September 30, 2008 supervision contact (effective) when examiners downgraded
the Credit Union to a CAMEL Composite rating of 3. The September 30, 2008
supervision contact resulted in a Document of Resolution (DOR) that cited concerns
with MBL limits and the adequacy of the Allowance for Loan and Lease Losses
(ALLL) specifically related to the risk in the MBL portfolio. Examiners issued DORs,
which placed limits on lending activities and required on-going reductions to the
MBL portfolio concentration each quarter. Examiners also performed a second
supervision contact effective October 1, 2008 as a result of a member complaint
that identified management activities designed to mask a significant delinquent loan
relationship.

We believe that red flags were present, which may have indicated the existence of
governance issues affecting the management of MBL credit risk. Examiner
commentary identified tone at the top 5 issues exhibited by executive management,
which we believe can signal more serious problems. Although we cannot conclude
that further analysis would have prevented the Credit Union’s liquidation, we can
reason that these observations might have served as a 'red flag' prompting
examiners to expand the scope of the review of the MBL portfolio sooner. We
determined that the following contributed to examiners not identifying the increases
in MBL credit risk earlier:


5
 Tone at the top is a commonly used phrase to describe an organization's general ethical climate, as
established by its board of directors, audit committee, and senior management.
                                                                                                       2
Material Loss Review – Chetco Federal Credit Union
OIG-13-10



    •   Limited exam resources and hours devoted to a comprehensive review of
        MBLs;
    •   Limited scope of individual MBLs reviewed compared to the complexity of
        the credits within the MBL portfolio, including construction and development
        financing;
    •   Lack of examination focus on MBL renewals and modification processes;
        and
    •   Lack of completion of formal training courses by the Examiner-in-Charge
        (EIC) in complex commercial credit analysis.
As a result of our review, we are making one suggestion and two observations to
NCUA management. We appreciate the effort, assistance and cooperation NCUA
management and staff provided to us.




                                                                                       3
Material Loss Review – Chetco Federal Credit Union
OIG-13-10



BACKGROUND

The National Credit Union Administration (NCUA) Office of the Inspector General
(OIG) contracted with Crowe Horwath, LLP (Crowe) to conduct a Material Loss
Review (MLR) for Chetco Federal Credit Union (Chetco, or the Credit Union) as
required by Section 216 of the Federal Credit Union Act (FCU Act), 12 U. S. C.
1790d(j).

History of Chetco Federal Credit Union

NCUA chartered Chetco in November 1957. In 1999, NCUA granted Chetco a
community charter to serve those who live, work, and worship in Curry County,
Oregon and Del Norte County, California. In January 1999, NCUA granted Chetco
an exception to the aggregate MBL limits in NCUA Rules and Regulations Part 723,
because the Credit Union had "a history of primarily making MBLs." In 2000, NCUA
granted Chetco an expansion of its charter to include the area of Coos County,
Oregon, and also granted Chetco a low-income credit union designation. Obtaining
the low-income credit union designation allowed Chetco to gain access to
alternative funding sources and resources from both the NCUA and outside parties.
This designation also allowed Chetco to qualify for exceptions to the aggregate loan
limit for MBLs. Table 1 (below) illustrates the MBL exception and waivers NCUA
granted to Chetco.

Table 1

                            MBL Exception / Waivers Granted
 NCUA
 Rules and       Date
                                                          Explanation
 Regulations   Granted
 Section
 723.17      01/11/1999                 Exception to the aggregate MBL limit based upon
                                        history of making MBL loans
 723.3b             10/30/2001          Approved up to 80 percent LTV for Construction
                                        and Development (C&D) Loans
 723.8              01/07/2004          Maximum to one borrower: 45 percent of net worth
 723.3a             09/01/2005          Maximum C&D portfolio: 100 percent of net worth

In 2001, Chetco’s Board of Directors (Board) hired a new CEO. The new CEO
focused Chetco on a strategy of growth and expanding the MBL portfolio. The
Board supported the focus on growing member business loans and continued
overall concentration in loans secured by real estate. The MBL portfolio grew from
$33.2 million (21.5 percent of assets) in 2002 to $189.4 million (56 percent of
assets) in 2010. In addition, the individual loan size and complexity grew from an
average MBL loan amount of $273,353 in 2004 to an average MBL loan amount
$444,194 in 2008. MBLs are generally limited to 175 percent of net worth by

                                                                                       4
Material Loss Review – Chetco Federal Credit Union
OIG-13-10



regulation. However, Region V granted Chetco an exception from this limit based
on its history of making MBLs and low income designation. In addition,
management expanded MBL lending out of the local membership area to include
loans to entities as far away as New Mexico and North Carolina.

During 2005, Chetco capitalized two CUSO’s. The first CUSO, Wild River Financial
Services (Wild River), provided fee-based financial planning and wealth
management services. Wild River was unprofitable and a drag on Chetco’s
earnings from 2006 through conservatorship in 2011. The second CUSO, CLS,
originated MBLs for client credit unions.

To promote the CU’s MBL growth strategy, Chetco management utilized the
services of their wholly owned CUSO, CLS, to originate, participate, and service
MBLs for client credit unions. Chetco employees often worked on multiple projects
related to each entity without properly accounting for their time. In addition, there
was no prescribed methodology for recognizing income or allocating expenses
between the entities. Chetco management tried, but was unable to obtain, a legal
opinion supporting that CLS was organized and operating as a separate and
distinct entity. As a result, officials and management were unable to determine the
true financial condition of either CLS or Chetco.

In April 2011, Chetco’s Board asked its CEO to resign due to the credit union's
deteriorating operating performance. Chetco’s Board initially sought approval for a
replacement CEO, who Region V initially denied based on a lack of demonstrated
knowledge, skills, and abilities for a troubled credit union. Region V subsequently
approved the replacement CEO on appeal by Chetco’s Board. Shortly thereafter,
Region V denied the new CEO's spouse for the Credit Union’s vacant CFO position.
Ultimately, the Chetco Board hired the CEO’s spouse as a management consultant.

Economic conditions and regulatory restrictions to curtail the MBL concentrations
exposed the risk management weaknesses. The result was high loan losses,
increasing non-performing loans, and depletion of reserves. NCUA’s Board placed
Chetco into conservatorship on September 23, 2011 and liquidated the credit union
effective December 31, 2012. The estimated loss to NCUSIF as a result of the
involuntary liquidation was $76.5 million. However, the actual cost to the NCUSIF
is unknown until all assets are sold.

NCUA Examination Process

The NCUA uses a total analysis process that includes collecting, reviewing, and
interpreting data; reaching conclusions; making recommendations; and developing
action plans. The objectives of the total analysis process include evaluating
CAMEL components and reviewing qualitative and quantitative measures. The
NCUA uses a CAMEL Rating System to provide an accurate and consistent
assessment of a credit union’s financial condition and operations. The CAMEL
rating includes consideration of key ratios, supporting ratios, and trends. Generally,
                                                                                     5
Material Loss Review – Chetco Federal Credit Union
OIG-13-10



the examiner uses the key ratios to evaluate and appraise the credit union’s overall
financial condition. During an examination, examiners assign a CAMEL rating,
which completes the examination process.

Examiner judgment affects the overall analytical process. An examiner’s review of
data includes structural analysis 6, trend analysis 7, reasonableness analysis 8,
variable data analysis 9, and qualitative data analysis 10. Numerous ratios measuring
a variety of credit union functions provide the basis for analysis. Examiners must
understand these ratios both individually and as a group because some individual
ratios may not provide an accurate picture without a review of the related trends.
Financial indicators such as adverse trends, unusual growth patterns, or
concentration activities can serve as triggers of changing risk and possible causes
for future problems. The NCUA also instructs examiners to look behind the
numbers to determine the significance of the supporting ratios and trends.
Furthermore, the NCUA requires examiners to determine whether material negative
trends exist; ascertain the action needed to reverse unfavorable trends; and
formulate, with credit union management, recommendations, and plans to ensure
implementation of these actions.

Risk-Focused Examination Program

In 2002, the NCUA adopted a Risk-Focused Examination (RFE) Program. Risk-
focused supervision procedures often include both off-site and on-site work that
includes reviewing off-site monitoring tools and risk evaluation reports. The RFE
process includes reviewing seven categories of risk: Credit, Interest Rate, Liquidity,
Transaction, Compliance, Strategic, and Reputation. Examination planning tasks
may include: (a) reviewing the prior examination report to identify the credit union’s
highest risk areas and areas that require examiner follow-up, and (b) analyzing Call
Reports and direction of the risks detected in the credit union’s operation and on
management’s demonstrated ability to manage those risks. A credit union’s risk
profile may change between examinations. Therefore, examiners should identify
changes in profile through various means including:

    •    Review of Call Reports;

    •    Communication with credit union staff; and

    •    Knowledge of current events affecting the credit union.

6
  Structural analysis includes the review of the component parts of a financial statement in relation to the
complete financial statement.
7
  Trend analysis involves comparing the component parts of a structural ratio to itself over several periods.
8
  As needed, the examiner performs reasonableness tests to ensure the accuracy of financial performance
ratios.
  Examiners can often analyze an examination area in many different ways. NCUA‟s total analysis process
9

enables examiners to look beyond the “static” balance sheet figures to assess the financial condition, quality of
service, and risk potential.
10
   Qualitative data includes information and conditions that are not measurable in dollars and cents, percentage.
                                                                                                               6
Material Loss Review – Chetco Federal Credit Union
OIG-13-10



OBJECTIVES, SCOPE, AND METHODOLOGY

We performed this material loss review to satisfy the requirements of Section 216(j)
of the FCU Act, 12 U.S.C. §1790d (j), which requires the OIG to conduct an MLR if
the loss to the NCUSIF exceeds $25 million. 11

Our audit objectives were to: (1) determine the cause(s) related to the
conservatorship of Chetco and the resulting loss to the National Credit Union Share
Insurance Fund (NCUSIF); (2) assess NCUA’s supervision of the credit union; and
(3) make appropriate observations/recommendations to prevent future losses.

We conducted this audit from January 2013 to September 2013 in accordance with
Government Auditing Standards issued by the Comptroller General of the United
States. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained,
as described in the Scope and Methodology sections, provides a reasonable basis
for our findings and conclusions based on our audit objectives.

The scope of this audit included an analysis of Chetco Federal Credit Union from
2005 to December 31, 2012, the date of liquidation. Our audit also included an
assessment of NCUA regulatory supervision of the institution during the same
period.

To achieve the objectives, we performed the following procedures and utilized the
following techniques:

•    We analyzed NCUA examination and supervision contact reports and related
     correspondence and work papers contained within the AIRES 12 system.

•    We interviewed management and/or staff from NCUA Region V and reviewed
     NCUA guides, policies and procedures, as well as NCUA Call Reports and
     NCUA Financial Performance Reports.

•    We reviewed Chetco data and correspondence maintained at the NCUA in
     Tempe, Arizona as provided to Crowe by NCUA.

Crowe relied primarily upon the materials provided by the NCUA OIG and NCUA
Region V officials, as well as information and other data collected during interviews.
We relied on our analysis of information from management reports, correspondence
files, and interviews to corroborate data obtained to support our audit conclusions.
We conducted interviews to gain a better understanding of decisions made
11
   The FCU Act deems a loss “material” if the loss exceeds the sum of $25 million or an amount equal to 10
percent of the total assets of the credit union at the time in which the NCUA Board initiated assistance under
Section 208 or was appointed liquidating agent.
12
   NCUA’s Automated Integrated Regulatory Examination Software.
                                                                                                                 7
Material Loss Review – Chetco Federal Credit Union
OIG-13-10



regarding the activities of credit union management and the NCUA’s supervisory
approach, and to clarify information and conclusions contained in reports of
examination and other relevant supervisory correspondence between the NCUA
and Chetco. Crowe relied on the information provided in the interviews without
conducting additional specific audit procedures to test such information.




                                                                                 8
Material Loss Review – Chetco Federal Credit Union
OIG-13-10



RESULTS IN DETAIL

We determined that Chetco Federal Credit Union’s management and Board caused
the failure and resulting loss to the NCUSIF. Specifically, Chetco management and
Board exposed the credit union to excessive amounts of credit and liquidity risk due
to its failure to set appropriate limits and maintain the appropriate risk management
infrastructure to support the growth in Chetco’s MBL portfolio. Although not a direct
cause of the failure, we also determined management did not adequately operate its
CLS CUSO in a fiscally and legally prudent manner, thereby allowing CLS operations
to intertwine with the Credit Union’s with no clear delineation of each entity’s
respective employee responsibilities. We also determined NCUA could have
mitigated the loss to the NCUSIF had they taken a more timely and aggressive
supervisory approach regarding Chetco’s concentration risk in its MBL portfolio.

A. Why Chetco Federal Credit Union Failed

                            Chetco’s Board and management did not adequately
  Large Loan                manage its loan portfolio, which maintained a large
  Concentration in          concentration in member business loans, particularly
  MBLs Led to               commercial real estate loans. Specifically, Chetco
  Chetco’s Failure          management grew its MBL portfolio from $33.2 million,
                            including unfunded commitments, in December 2002, to
                            a high of $212 million in 2009, eventually lowering to
$189.4 million by December 2010. This represented an increase in concentrations in
Chetco’s MBL portfolio from less than 26.6 percent of total loans as of 2002 to over
60 percent as of December 2009. Chart 1 (below) illustrates the growth of Chetco’s
MBL portfolio compared to total loans and total assets.

Chart 1




                                                                                    9
Material Loss Review – Chetco Federal Credit Union
OIG-13-10



During the decade from 2001 - 2010, management focused on expanding the MBL
portfolio and, during much of this period, the portfolio experienced lower
delinquencies and losses. Management increased Chetco’s concentration levels in
MBLs from 26.6 percent of total loans in 2002 to 60 percent of total loans by
December 31, 2009, with a slight decline to 57 percent by the end 2010. Chart 2
(below) illustrates Chetco’s MBL concentration as a percentage of total loans.

Chart 2




Rising Delinquencies

Our analysis of Chetco’s financial performance during this period of rapid growth in its
MBL portfolio showed the credit union’s delinquency rates remained less than 1
percent from 2002 to 2007. Management had secured the majority of Chetco’s loan
portfolio, including the MBL portfolio, with real estate. In 2007 and 2008 when the
broader economy, and particularly the real estate market within Chetco’s membership
area, began experiencing financial difficulty, Chetco likewise began experiencing an
increase in delinquencies. By 2008, MBL delinquencies had reached over 4 percent
of total MBL loans and by December 2010 had climbed to over 10 percent. Chart 3
(below) illustrates Chetco’s MBL delinquencies as a percentage of total MBL loans.




                                                                                     10
Material Loss Review – Chetco Federal Credit Union
OIG-13-10



Chart 3




During the September 30, 2008 supervision contact, the Examiner-In-Charge (EIC)
observed rising delinquencies and Region V received a member complaint shortly
after the conclusion of this examination, which resulted in a follow-up targeted contact
effective October 1, 2008. Region V looked into the complaint, which alleged
activities by Chetco management to mask the delinquency of a large MBL
relationship. As a result of this targeted follow up, examiners placed restrictions on
certain payment and extension transactions in an effort to prevent Chetco
management from masking additional delinquencies. As the economy continued to
deteriorate in 2007 and 2008, the losses embedded within the portfolio began to
show very quickly. By the end of 2008, Chetco’s total delinquent MBLs were over
$6.1 million, a $5.4 million increase from 2007, and by December 2010, total
delinquent MBLs had risen to over $12.4 million. Chart 4 (below) illustrates Chetco’s
delinquency trends observed between 2002 and 2010.




                                                                                     11
Material Loss Review – Chetco Federal Credit Union
OIG-13-10



Chart 4




Liquidity

Our review of examination working papers also showed that Chetco management
funded rapid loan growth through a combination of borrowed funds and deposit
products with above-market rates. However, in July 2011, due to Chetco's
deteriorating financial condition, Southwest Corporate Federal Credit Union reduced
Chetco’s line of credit from $15 million to $10 million. In addition, the Federal
Reserve Bank restricted Chetco to secondary credit and overnight borrowings.
Ultimately, Chetco management failed to maintain liquidity at levels required by
examiners in their 2010 examination reports as well as a July 2011 Letter of
Understanding and Agreement.

Chart 5 (below) illustrates Chetco’s increasing reliance on borrowed funds to expand
its MBL portfolio.




                                                                                  12
Material Loss Review – Chetco Federal Credit Union
OIG-13-10



Chart 5




Examiners issued Chetco management three DORs in 2008 citing concerns with
MBLs, including a requirement to begin reducing the concentration in MBLs. As
previously mentioned, one of the DORs issued effective October 1, 2008, was the
result of a supervision contact made as the result of a member complaint. In the
complaint, the complainant accused the CEO of asking other members to cover up a
delinquent relationship thereby masking the delinquency of the loan relationship.
Examiners issued a follow-up DOR that prohibited such activity along with imposing
limits on further lending and modifications. By the end of 2008, Chetco’s MBL
delinquencies had risen to $7.3 million or 4 percent of its MBL portfolio.

Beginning with the supervision contact effective September 30, 2008, examiners
cited concerns related to the declining economy and its potential impact to Chetco’s
MBL portfolio. Examiners issued a DOR and placed restrictions on further MBL
lending. In the DOR, examiners required Chetco management to reduce the MBL
portfolio as a percentage of net worth to 500 percent by December 31, 2009.
Management appealed the reduction of MBL’s, stating that Chetco had approximately
$100 million in MBL loan applications in the pipeline prior to the NCUA issuing the
DOR. In its appeal, Chetco management requested that the Region:

        [e]liminate the quarterly Member Business Loan (MBL)/Net Worth
        ratio targets and increase the December 31, 2009 limits on the
        MBL/Net Worth ratio from 500 percent to 600 percent.

In a letter to Chetco management dated March 3, 2009, the Region V Regional
Director granted the appeal. However, Chetco management was unable to reduce its
concentration of MBL lending fast enough to lessen the impact of the losses in a
rapidly declining real estate market. Based on its high concentration of MBL lending
as a percentage of capital, the losses quickly caused the Credit Union to become
undercapitalized. As previously mentioned, NCUA Rules and Regulations typically
limit MBLs to 175 percent of net worth. However, Chetco had obtained an exception
to this restriction based on its history of making MBLs and low income designation.
                                                                                 13
Material Loss Review – Chetco Federal Credit Union
OIG-13-10



Chart 6 (below) illustrates the relationship between Chetco’s MBLs to its total net
worth:

Chart 6:




Allowance for Loan and Lease Losses

Our analysis of Chetco’s ALLL showed that Chetco management was not maintaining
the Credit Union’s ALLL methodology in compliance with NCUA Interpretive Ruling
and Policy Statement (IRPS) 02-3 13 and Accounting Bulletin 06-01. 14 Examiners first
determined during the examination effective September 30, 2009, that Chetco’s ALLL
was underfunded and deemed its methodology deficient because it failed to reflect
actual and emerging losses in the loan portfolio. In addition, examiners noted during
the examination effective March 31, 2010, that management did not:

     •   Obtain updated financial statements from borrowers;

     •   Obtain updated collateral valuations even though commercial real estate
         values were falling nationwide; and/or

     •   Update internal risk ratings.

As a result, Chetco management did not have sufficient data to quantify risk in the
loan portfolio to determine the impairment of individual large or complex commercial
loans. The ALLL did not accurately reflect the declining credit quality and the 5300

13
   The NCUA IRPS 02-03 is the final interpretive rule and policy statement on ALLL Methodology and
Documentation for Federally Insured Credit Unions. This IRPS provides guidance for ALLL methodologies and
supporting documentation practices.
14
   Accounting Bulletin 06-01 distributes an interagency advisory addressing the ALLL that reiterates key concepts
and requirements included in generally accepted accounting principles.
                                                                                                              14
Material Loss Review – Chetco Federal Credit Union
OIG-13-10



Call Reports did not reflect the anticipated losses and diminishing capital. As a
result, the examiner’s analysis of the 5300 Call Reports did not alert them to
increased risk in the loan portfolio because the information used in the analysis was
incorrect.

CUSO Operations – Commercial Lending Solutions

As previously mentioned, Chetco management operated CLS, a wholly owned CUSO
established to originate, participate, and service MBLs for client credit unions.
Although not a direct cause of the failure, Chetco Management failed to operate CLS
in a safe and sound manner by intertwining the operations of the Credit Union and
CLS with no clear delineation of each entity’s respective employee responsibilities.
Employees often worked interchangeably on multiple projects related to each entity
without properly accounting for their time. In addition, there was no prescribed
methodology for recognizing income or allocating expenses between the two entities.
In the DOR issued to Chetco management during the examination effective
March 30, 2010, Region V instructed Chetco management to:

        [c]ease funding the CUSO Commercial Lending Services and
        obtain a legal opinion until such time as you have submitted and
        received a favorable legal opinion from a qualified attorney for a
        plan to address the conflicts of interest and lack of reporting and
        documentation for participation loan files.

Examiner working papers showed Chetco management tried, but was unable to
obtain, a legal opinion supporting that CLS was organized and operating as a
separate and distinct entity.




                                                                                    15
Material Loss Review – Chetco Federal Credit Union
OIG-13-10



B. NCUA Supervision of Chetco Federal Credit Union

                              We determined Examiners could have mitigated the
  NCUA Could Have
                              loss to the NCUSIF had they taken a more timely and
  Mitigated the Loss to
                              aggressive approach regarding Chetco’s concentration
  the NCUSIF                  risks in its MBL portfolio. Specifically, had examiners:
                              1) better understood the complexity and magnitude of
the concentration risk within the MBL portfolio; 2) expanded the hours allotted to
supervise Chetco through additional analysis of the MBL portfolio; and 3) included a
review of renewal/modification activities within the scope of examinations prior to
September 30, 2008, the lending activities might have been identified earlier, thus
potentially reducing the $76.5 million loss to the NCUSIF.

As previously mentioned, Region V initiated a follow-up targeted supervision
contact effective October 1, 2008, as the result of a complaint alleging Chetco
management masked its delinquent loan activity. The examiner identified
inappropriate activity and issued a DOR designed to prohibit management from
engaging in certain payment and extension transactions. As a result of this
prohibition, Chetco’s delinquency rates immediately increased from $743 thousand
as of December 31, 2007, to over $6.1 million by December 31, 2008. Prior to this
targeted contact, Region V had not identified significant credit quality concerns with
the Credit Union’s MBL portfolio or concerns with the significant level of
concentration risk in the MBL portfolio, which we believe should have required an
increased level of attention or supervision. As a result, the NCUSIF incurred a loss
of $76.5 million.

Supervisory Background

Chetco consistently received a Composite CAMEL rating of 2 or better up through
the examination effective June 30, 2007, an indication of strong performance.
Examiners noted the Credit Union’s deterioration beginning with the next
examination effective September 30, 2008, when they downgraded the Credit
Union’s CAMEL Composite to 3. Examiners kept the Credit Union’s Composite
CAMEL rating at 3 until the examination effective March 31, 2010, when they again
downgraded it to a Composite Camel rating of 4. The Credit Union remained a
Composite CAMEL 4 through the examination effective June 30, 2011, when NCUA
downgraded it to a Composite CAMEL 5 where it remained through liquidation in
2012. Table 2 (below) provides Composite and specific CAMEL ratings for the
applicable examinations during the scope period of our review.




                                                                                    16
Material Loss Review – Chetco Federal Credit Union
OIG-13-10



Table 2:


                              NCUA Examination Results for Chetco**

 Examination           Exam       CAMEL         Capital
                                                           Asset
 Effective             Type       NCUA           / Net               Management        Earnings      Liquidity
                         15                                Quality
 Dates                           Composite      Worth
 May 2000               10            2            1          1             2               3            2
 August 2001            10            2            2          1             2               2            2
 June 2002              10            2            1          1             2               1            2
 December 2003          22            2            2          1             2               1            2
 March 2004             10            2            1          2             2               1            1
 December 2005          10            1            1          1             2               1            2
 June 2007              10            2            2          2             2               2            3
 September 2008         22            3            3          3             2               2            3
 October 2008           22            3            3          3             2               2            3
 December 2008          10            3            3          3             2               2            3
 September 2009         22            3            3          3             2               2            3
 March 2010             10            4            4          4             4               4            4
 September 2010         22            4            4          4             4               4            4
 December 2010          10            4            4          4             4               5            4
 June 2011              22            5            5          5             5               5            5
**Examination information provided by NCUA’s Region V.

We determined that in the examinations where Chetco’s Composite CAMEL rating
was 3 or greater, the NCUA took appropriate actions and notified Credit Union
management of the weaknesses observed and the mandatory actions required
under NCUA’s Rules and Regulations Manual, which included requiring the Credit
Union to reduce its MBL concentrations and revoke its MBL waivers. Specifically,
examiners issued three DORs between September 30, 2008, and December 31,
2009, requiring, among other things, that Chetco management reduce its MBL
portfolio as a percentage of net worth to 500 percent by December 31, 2009. As
previously mentioned, Chetco management appealed the reduction of member
business loans and the Region V RD granted the appeal. Examiners issued
additional DORs and a Letter of Understanding and Agreement that increased
requirements and placed additional prohibitions on management related to the MBL
portfolio. Chetco management failed to follow through with required actions, which
resulted in Chetco’s Board acting to replace the CEO.

Insufficient Resources

Despite examiners utilizing NCUA’s risk-focused exam program, which allows for
reallocating budgeted hours within examinations to focus more time within any

15
  Work Classification Code (Examination Type) 10 is a regular risk focused examination of a federally
chartered credit union, whereas an Examination Type 22 is an on-site risk-focused supervision contact.
                                                                                                             17
Material Loss Review – Chetco Federal Credit Union
OIG-13-10



particular area, Supervisory Examiners (SE) and EICs involved with examining
Chetco from 2005 to 2011 indicated that sufficient resources were not always
available and/or allocated to significantly expand the review of Chetco’s MBL
activities prior to 2009. These individuals indicated that the hours allotted to
supervision contacts and examinations included hours focused on a variety of risk
factors beyond the concentration risk in the MBL portfolio and included reviewing
asset liability management, liquidity, and consumer compliance activities.
Additionally, based on discussions with Region V management officials, during
2007 and 2008 Region V experienced an unprecedented influx of troubled credit
unions, which required the Region’s complete attention and resources. With a finite
amount of total resource capacity, Region V management explained they made
resource allocation decisions to focus on identified critical situations in other areas
of the region, which ultimately limited the total hours allocated to the supervision of
Chetco because examiners had not identified the risks related to its MBL credit
quality and concentrations at that time.

We learned during one interview with a Region V employee that this resulted in
sometimes less than 100 hours devoted to analyzing what had become an
increasingly complex MBL portfolio as the concentration grew from 2002 through
2010. Although our review of the examination effective March 31, 2010 reflected a
significant increase in the number of hours focused on the MBL portfolio, at that
point, significant risk already existed within the portfolio and delinquencies and
losses were mounting. In situations where management takes action to mask
problems and the credits are complex in nature, we believe a review of a relatively
small sample of loans – as was the case during this examination – is less likely to
early identify increased risks and credit quality concerns within a portfolio. Table 3
(below) illustrates the relationship between the hours utilized during each contact as
compared to MBL growth and changes in CAMEL ratings and net worth
comparisons. Specifically, the credit union’s MBL portfolio grew from just over $33
million as of June 30, 2002 to $182 million as of December 31, 2008. During the
same period, MBLs as a percentage of net worth grew from 263 percent to 632
percent, yet the total number of hours allotted to the examination only increased 20
hours from 241 to 261.




                                                                                    18
Material Loss Review – Chetco Federal Credit Union
OIG-13-10



Table 3:

                    Composite   Total                              Risk                                       MBLs Net of      MBL as % Net MBLs
             Exam     Camel     Exam     Total Net                Based                         Unfunded       Unfunded         of Net   as % of
Exam Date    Type     Rating    Hours     Worth        Net Worth Net Worth       Total MBL    Commitments    Commitments        Worth Net Worth
6/30/2002     10        2        241    $ 12,655,681    9.26%      6.80%     $     33,286,479 $   1,442,560 $     31,843,919    263%      252%
12/31/2003    22        2        87     $ 16,890,230    8.95%      7.44%     $     53,515,310 $   5,301,757 $     48,213,553    317%      285%
3/31/2004     10        2        248    $ 17,486,005    8.87%      6.40%     $     66,423,840 $   4,277,850 $     62,145,990    380%      355%
12/31/2005    10        1        272    $ 21,882,887    8.64%      7.63%     $ 119,169,494 $      10,480,124 $   108,689,370    545%      497%
6/30/2007     10        2       237.9   $ 25,877,926    8.37%      8.01%     $ 151,798,780 $      15,446,989 $   136,351,791    587%      527%
9/30/2008     22        3        56     $ 29,702,572    8.63%      8.33%     $ 183,782,781 $      11,287,235 $   172,495,546    619%      581%
10/1/2008     22        3        14     $ 29,702,572    8.63%      8.33%     $ 183,782,781 $      11,287,235 $   172,495,546    619%      581%
12/31/2008    10        3        261    $ 28,906,729    8.31%      8.18%     $ 182,563,562 $      6,970,315 $    175,593,247    632%      607%
9/30/2009     22        3       116.5   $ 33,844,941    9.44%      8.19%     $ 193,366,542 $      20,437,542 $   172,929,000    571%      511%
3/31/2010     10        4        381    $ 34,578,646    9.42%      8.18%     $ 212,958,169 $      27,394,065 $   185,564,104    616%      537%
9/30/2010     22        4        291    $ 31,137,490    8.48%      6.97%     $ 193,843,315 $      8,164,269 $    185,679,046    623%      596%
12/31/2010    10        4       439.5   $ 16,690,328    5.01%      7.18%     $ 189,417,108 $      5,182,425 $    184,234,683    1135%    1104%


Lack of Examination Scope Related to MBL Renewals and Modifications

Based on discussions with the SEs and EICs involved with supervising Chetco
between 2005 and 2011, we concluded that the scope of the examinations did not
focus on MBL renewals and modifications for appropriateness and proper
underwriting. Chetco’s delinquency rate was less than 1 percent until 2008.
Chetco was able to maintain a lower level of delinquencies by renewing and
modifying delinquent loans, thus managing the system to make the delinquent
loans appear current on system reports. As previously noted, because the
examination process did not include robust analysis of renewed and modified loans,
Region V did not detect that Chetco management had been asking members to pay
interest for an unrelated MBL relationship to mask the delinquent status until NCUA
received a member complaint in 2008.

Although this was the first indication of potentially hidden problem credits,
subsequent examinations identified that Chetco management appeared to be
actively modifying problem credits to mask delinquencies. The examiners later
issued a DOR prohibiting management’s actions related to modifying and renewing
problem loans. We determined examiners did not identify Chetco management’s
actions through standard ratio analysis. We believe that, had the 2008 or earlier
examinations included an in-depth review of Chetco’s loan modification practices,
the likelihood that examiners would identify this activity earlier would have
increased. In addition to a review of its modification practices, other types of
analysis might have detected similar behaviors, such as performing a trend analysis
on the number of modifications performed on loans without principle reductions.




                                                                                                                                             19
Material Loss Review – Chetco Federal Credit Union
OIG-13-10



Lack of Formal Training Revolving Around Complex Commercial Credits and
Problem Loan Identification

Based on discussions with SEs and EICs involved with Chetco between 2005 and
2011, we concluded there was a lack of understanding and specialized training for
staff regarding the complexity surrounding the origination and monitoring of
member business loans. Although it is evident that the EIC had experience with
member business credits, we learned much of the training the EIC received he
obtained “on the job” and did not involve receiving instruction through a formal
NCUA MBL training program. Although “on the job” training and experience is very
valuable, we believe in situations where credit union management may be masking
problems, there is greater risk examiners may not detect these behaviors or they
may rationalize them due to the lack of familiarity with the circumstances.

NCUA’s Division of Training and Development (DTD) includes a core curriculum of
courses on member business lending that increases in complexity. We learned that
DTD officials routinely make changes to these courses based upon changes to the
laws, regulations, and industry. We obtained the training records for the EIC
involved in supervising Chetco from 2005 to 2011 going as far back as 1999 and
observed no training specific to member business lending. We believe had the EIC
received the core curriculum of MBL training courses, there would have been a
greater likelihood that the credit quality and concentration risk concerns would have
likely been identified much sooner. Additionally, in response to industry changes at
the time, NCUA created specialized positions (Regional Lending Specialist) in 2010
to help provide more expertise in the lending area.

Based on the lack of formal training identified above, we suggest NCUA
management ensure that during the Individual Development Plan process,
supervisors perform a review of the training courses completed by examiners to
ensure that the courses taken are in connection with their assigned responsibilities
and to determine whether examiners have been exposed to the right mixture of
course material. The objective of the training review should be to ensure that
examiners have sufficient and current knowledge related to the critical risk
conditions of the credit union they are examining. When critical changes occur in
the industry or in the content of courses previously taken, examiners should
consider re-taking those refreshed courses.

OBSERVATIONS

Important observations from our review of Chetco include:

    •   Identifying and understanding the complexity and risks associated with
        member business lending is essential to applying the risk-focused exam
        program procedures effectively. NCUA created specialized positions
        (Regional Lending Specialist) in 2010 to help provide more expertise in the
        lending area.
                                                                                  20
Material Loss Review – Chetco Federal Credit Union
OIG-13-10



       •   The examination scope should include procedures over member business
           loan activities involving renewals, modifications, and extensions in order to
           validate that these activities are properly documented, underwritten, and
           approved in accordance with safety and soundness guidelines. As observed
           with Chetco, credit union management can use these activities to mask loan
           delinquencies.

           In May 2012, NCUA revised 12 CFR Part 741 and added on Appendix C:
           “Interpretive Ruling and Policy Statement on Loan Workouts and Non-
           accrual Policy and Regulatory Reporting of Troubled Debt Restructured
           Loans,” to acknowledge the economic situations impacting the lending
           function and asset quality of the industry. The requirements outlined in this
           regulation became effective during the fourth quarter of 2012. The data first
           became available to field examiners through the 5300 Call Report with the
           completion of the December 31, 2012 regulatory reports. Subsequently, in
           April 2013, NCUA issued Supervisory Guidance on TDR16 to all field staff,
           which requires federally insured credit unions to incorporate the following
           into their lending programs:

                o Develop a written loan workout policy;

                o Establish monitoring requirements over loan workouts;

                o Report to regulatory agencies loans in workout status, including past
                  due TDRs;

                o Place loans on non-accrual status when loans are past due 90 days
                  unless the loan is “well secured” and “in the process of collection;”
                  and

                o Return the member business loan to accrual status only after the
                  credit union can document a current credit evaluation of the
                  borrower’s financial condition and prospects for repayment under the
                  revised terms.

           The Supervisory Letter also established a uniform examination approach to
           reviewing loan workouts, nonaccruals, and regulatory reporting of TDR
           loans. Additionally, it provided specific guidance for evaluating whether
           credit unions are following applicable regulatory requirements in
           administering a sound loan workout program.




16
     Supervisory Letter No. 13-02.
                                                                                          21
Material Loss Review – Chetco Federal Credit Union
OIG-13-10



Appendix A - Management Response




                                                     22
Material Loss Review – Chetco Federal Credit Union
OIG-13-10




                                                     23
